No.

3Jn tbe ~upreme QCourt of tbe Wniteb ~tate~

STEVEN EDWA RD STRUVE, PETITION ER,

v.
STATE OF IOWA

On Petition for a Writ of Certiorari
to the Supreme Court of Iowa
PETITION FOR A WRIT OF CERTIORARI

As required by Supreme Court Rule 33.l(h), I certify that the Petition for a
Writ of Certiorari contains 7,051 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 2, 2021..

Cf--z r.L-d
Jeremy C. Marwell
Counsel for Petitioner

